                                           From the Inspector General


Transportation is an everyday fact of life for most Americanswhether it is travel to job, school or
store, or the reliance on food, energy or another product that has traveled on our nations vast trans-
portation system. Though it is taken for granted, transportation is a result of a myriad of separate
acts of planning, decision and follow-through.

We in the Office of Inspector General conduct audits and investigations of Department of
Transportation programs and personnel to make certain that this critical network is operating safe-
ty, efficiently and effectively. We are dedicated to detecting and, where possible, preventing waste,
fraud and abuse in the Department, which spends more than $40 billion each year in virtually every
community in the country.

We work cooperatively with Department officials but we are careful to maintain the independence
required of OIG. Our work helps advance the Secretarys five Strategic Goals: safety, mobility, eco-
nomic growth and trade, human and natural environment, and national security. Moreover, an
important concept guiding our work has been the Secretarys One DOT initiative, in which the
combined expertise of the Departments Operating Administrations is brought to bear on cross-cut-
ting transportation issues, such as the transport of hazardous materials, the effects of human factors
on safety, or large-scale technology acquisitions.

The past six months have been highly productive in the Inspector Generals office. We have helped
strengthen the Department and its administration of taxpayers dollars. During the period covered by
this report, OIG issued 107 audit reports with total financial recommendations of $447.6 million,
largely agreed to by the Operating Administrations audited. Full versions of selected audit reports
are available on OIGs Internet website at http://www.dot.gov/oig/ Investigations led to 59 indict-
ments, 78 convictions and $12,251,155 in monetary compensation, including fines, restitution pay-
ments, judgments and recoveries.

The Office of Inspector General is a proactive force for constructive change throughout the
Department. But we will only make solid gains in safety and performance by working with the peo-
ple who administer the programs and the people for whose benefit the programs exist. On behalf of
my colleagues at DOTs Office of Inspector General, I would like to thank Transportation Secretary
Rodney Slater, Deputy Transportation Secretary Mortimer Downey, the Operating Administrators
and Members of Congress for their continuing cooperation with, and responsiveness to, our work.



                                                                Kenneth M. Mead
                                                                Inspector General
                      Summary of Performance
                     Office of Inspector General
               April 1, 1998-September 30, 1998
                   Reports Issued   107
Total financial recommendations     $447,574,000
      That funds be better-used    $443,786,000
               Questioned costs    $3,571,000

 Referrals: prosecution, litigation
                   or other action 160

  Cases accepted for prosecution 142

                      Indictments 59

    Fines, restitutions, recoveries $12,251,155


                      Convictions 78

       Suspensions/debarments 3

Actions affecting DOT employees
 26
Major Audits and Investigations               1


Focus:	         Railroad Safety               2
                FAA Personnel Reform          4

Chart: Work Planned and in Progress           6

April 1998                                     8
May 1998                                      12
June 1998                                     16
July 1998                                     20
August 1998                                   24
September 1998                                28

Chart: Proposed OIG Fiscal Year 1999 Budget   32

Organization/Management                       33


Chart: OIG Organization                       33

Table: Completed Audits                       34

Table: Management Decisions                   35
                                                       Contents

Table: Reports with Recommendations
           That Questioned Costs                             36

Table: Recommendations That Funds
            Be Put to Better Use                             37

Table: Recommendations for Safety,
           Economy or Efficiency                             38

Table: Status/Unresolved Audit Recommendations               39

Table: Profile of Pending Investigations                     40

Table: Judicial Actions                                      41

Table: Administrative Actions                                41

Charts: Audit and Investigative Resource Application         42

List of Audits                                               43


Contacts: Key OIG Staff                                      48

                                              Major Audits

                                                        and
                                             Investigations

The Office of Inspector General includes a staff of auditors and evaluators who review
the programs and operations of the Department of Transportation to help its managers
improve them. Some audits focus on financial issues; others review the effectiveness of
programs. The Inspector Generals staff also includes investigators who build criminal
cases against those who break transportation-related lawsranging from trucking firms
that force drivers to work too many hours without rest and haulers who illegally trans-
port hazardous materials to vendors who traffic in illegal, unapproved aircraft parts.

Many factors go into determining what to audit. Some audits are required by law.
Others are requested by key decisionmakers, such as the Secretary of Transportation,
heads of the Operating Administrations within DOT or Members of Congress. The OIG
audit agenda is also based on the past experience of an audited entity, the strategic goals
of DOT, and priorities established each year by OIG itself. Many times, auditors, eval-
uators and the Inspector Generals investigators work together closely to ensure that a
program financed with Federal money is conducted both honestly and efficiently. The
IG Act requires the Department to provide the IG with all requested information and for
the IG to report any instance in which access was denied. No information requested by
OIG was withheld by DOT officials during the 6 months covered in this report.

Information for OIG investigations also comes from many areas. DOTs Operating
Administrations and state government officials often will refer tips or information about
suspicious activity to OIG special agents for investigation. Those agents build the cases,
executing search warrants as needed and making arrests in the process. The majority of
cases are prosecuted by United States attorneys in Federal courts.

Another source of investigative direction is the Office of Inspector General hotline, an
800 number that lets citizensincluding Federal workershave direct access to OIG
staff. The number is 1-(800)-424-9071. Hotline users are not obliged to disclose their
identities and whistle-blowers within the Government are protected from reprisal by
Federal law. The hotline staff now can be e-mailed at hotline@oig.dot.gov


                                    1
Focus:

                           Objective:
    Assessing collaborative efforts to improve railroad safety




    When the Federal Railroad Administration adopted its "Safety Assurance and
    Compliance Program" in March 1995, the agency had two goals. One was to
    maximize the productivity of FRA's limited corps of safety inspectors. The
    other was fostering cooperationin the name of safetyamong the various
    stakeholder groups within each regulated railroad, with the idea that having
    the players "buy into" safe practices would achieve better safety results than
    sanctions only.

    Cooperation within Regulation

    OIG's auditreport TR-1998-210set out to evaluate the effectiveness of FRA's new
    approach. We concluded that the program has fostered more cooperation among rail-
    road management, labor and Federal regulators, but the Safety Assurance and
    Compliance Program needs major strengthening in several areas, including a clear
    understanding that FRA will take strong enforcement action when warranted.

    The Safety Assurance and Compliance Program has three major components: a safety
    profile of a railroad written by FRA with substantial input by railroad labor and man-
    agement; a safety action plan, developed by the railroad in response to issues identified
    in the safety profile; and follow-up monitoring and enforcement by FRA.

    OIG analyzed FRAs steps to make sure the program is effective. We reviewed nine
    railroads participation, including three major railroads and six smaller ones. We
    determined that FRA could improve the program by:

                                         2
                                        Railroad Safety

u Clearly defining the criteria used in creating the safety profiles of
railroads, to ensure minimum standards are met and consistency is
observed. Criteria at the time of the audit did not give detailed guide-
lines for inspectors to follow.

u Supplementing the labor-management listening sessions used in
creating the safety profiles with information from FRAs own
files, including railroad-specific data on trends, and leading
causes, of accidents. Information was not consistently collected at
listening sessions and existing FRA safety information was not fully
explored.

u Including information from state railroad regulators and even the
public in developing safety profiles.

u Consistently addressing sys-
temic safety issues in developing,
and following up on, safety
action plans. Systemic issues were
excluded from some action plans
and limited on others.

uMaking FRAs inspectors aware
of safety steps promised by the
railroads before the inspectors go
into the field. FRA inspectors
were not routinely made aware of
safety steps promised in safety
action plans.

uStrengthening monitoring and enforcement. While the Safety
Assurance and Compliance Program is heavily dependent on partner-
ship with the industry, there must be no mistaking that FRA, as the
regulator, will take strong enforcement action when its industry part-
ners fail to take appropriate corrective action.




                                 3
Focus:

                                 Objective: 

           Reviewing FAAs development of new systems for hiring,

               training, compensating and relocating personnel

  The Federal Aviation Administration consists of about 49,000 employees providing services in
  6 major areas: air traffic control, research and acquisitions, regulation and certification, civil
  aviation security, airports, and commercial space transportation.

  In September 1993, the National Performance Reviewwhich conducted efficiency analyses
  throughout the Federal governmentconcluded that Federal budget, procurement, and person-
  nel rules prevented FAA from reacting quickly to the needs of the air traffic control system. In
  1994, Congress directed the Secretary of Transportation to study possible reforms that could
  improve that situation; the resulting report urged exemption of FAA from Federal personnel rules
  and procedures.

  Late in 1995, Congress directed the FAA Administrator to develop a new personnel management
  system effective April 1, 1996. It was to address the unique demands of the agency's workforce
  and provide greater flexibility in hiring, training, compensation and location of personnel.


  Our audit (AV-1998-214) found that FAA has recently made important progress in fulfilling the
  program's goals, by initiating two new compensation systems affecting 33 percent of its work-
  force. However, FAA faces several challenges in implementing the systems, which are expect-
  ed to cost some $1 billion more, over 5 years, than those they replace. Further, compensation
  issues for FAA's remaining employeesand hiring, training and location mattersremain in
  development or are only partially in place.

  New pay systems for air traffic control,
  research and acquisitions
  FAA reached a new collective bargaining agreement, effective September 15, with its largest
  union, the National Air Traffic Controllers Association (NATCA). Its new pay system means
  about 15,000 controllers' pay will be based on the complexity of operations carried out and the
  volume of air traffic controlled. It also includes changes in work rules that are expected to boost
  productivity.

  Further, in July FAA initiated an 18-month pilot program in its research and acquisitions divi-
  sion that will cover about 1,200 employees and another 35 executives. The program will link
  pay with performance and measure performance in conjunction with FAA's Strategic Plan.
                                              4
                              FAA Personnel Reform

Though both plans may offer affected FAA employees strong new incentives for good per-
formance, they come at a price. FAA estimates the NATCA agreement will add $860 mil-
lion in controller payroll costs over the next 5 years; a proposed similar pay system for air
traffic managers and supervisors could cost another $260 million over the same time peri-
od. Further, the research and acquisitions pilot program may add costs, despite FAA expec-
tations of corresponding productivity gains. The pilot allows for significant potential pay
increases for some employees.
                                                       The unfinished agenda
Our audit also found that further effort is needed to address compensation issues for the
remaining two-thirds of FAA's workforce and other key issues:

      u Flexibility in hiring. While
FAA has granted its six major divisions
the flexibility to use at least three
approaches in identifying prospective
new hires (the time-honored vacancy
announcement, plus central registry
and targeted hiring of staff for hard-to-
fill openings) air traffic facility man-
agers told OIG they still must hire
applicants using Office of Personnel
Management procedures that predate
FAA's personnel reforms.

    u Curbing redundant training. FAA's reform plans called for new tests to be devised
to ensure new hires possessed required skills. Previously, all employees were put through
training that proved redundant for many of them. Though employee associations objected
to a proposed Basic Electronic Screening Test the airway facilities division devised, saying
it could cause hiring disparities, FAA examined the issue and tentatively plans to begin
using the test November 15, 1998.

    u Change of location/travel program amendments. FAA developed 18 reform ini-
tiatives covering temporary-duty travel, extended stays and permanent "change-of-station"
moves. Though the Administrator approved these as early as April, 1997, FAA opted not to
implement them until they could be negotiated with all 7 of FAA's unions. Pending the
Administrator's approval, FAA may begin testing the initiatives within segments of its total
workforce.

                                                5
   Office of Inspector GeneralWork Planned and in Progress

In the interest of maximizing DOTs value to citizens, the Secretary of Transportation has developed a Strategic Plan setting pri-
orities for the appropriate deployment of Departmental staff and other resources. This chart illustrates major OIG work planned
and in progress in relation to the Secretarys priorities of Safety, Mobility, Economic Growth and Trade, Human and Natural
Environment and National Security.



Strategic goal: Safety                                            uAssess progress by Federal Railroad Administration
                                                                  and other operating administrations to implement the
                                                                  Rail-Highway Crossing Safety Action Plan.
uReview FAAs National Aviation Safety Inspection
Program to determine any systemic weaknesses.                     uEvaluate the U.S. Coast Guards inspections of passen-
                                                                  ger vessels and its ability to respond to major incidents.
uReview Year-2000 computer problems affecting the avi-
ation industry; review FAA action to identify scope of            uReview the U.S. Coast Guards progress in achieving its
such problems with air carriers and airports; review FAA          goal of reducing recreational boating deaths.
strategy to ensure such problems and attendant safety
risks are addressed.                                              uCoordinate, with RSPA and a team from all operating
                                                                  administrations overseeing hazardous materials, an eval-
uEvaluate effectiveness of FAAs inspection system for            uation of DOTs HAZMAT transportation program.
makers of aviation fasteners.
                                                                  uPlace priority on OIG investigations affecting safety--
uFollow up on FAA actions to reduce runway incursions             specifically HAZMATs, motor carrier safety and traffick-
                                                                  ing in unapproved aircraft parts.
uReview Federal Highway Administration analysis of
post-accident truck crash data and development of acci-           uParticipate, as requested, in training DOT inspectors
dent-prevention measures.                                         regarding aviation- or trucking-safety issues and briefing
                                                                  DOT staff and industry members on OIG investigations.


Strategic Goal: Mobility
                                                                  uPerform in-depth reviews of selected Megaprojects
uReview FAA efforts to modernize the air traffic control
                                                                  regarding costs, funding, and completion schedules.
system.
                                                                  uConduct semiannual follow-up reviews                       on
uEvaluate FAA progress in creating training and career            Megaprojects earlier reported on by OIG.
development programs for maintenance technicians.
                                                                  uWork with the Federal Railroad Administration to
uConduct a baseline review of all DOT Megaprojects,             develop risk-mitigating internal controls for its railroad
highway and transit projects costing $1 billion or more.          loan programs.
Resulting data will be used to target subsequent in-depth
OIG reviews.




                                                                 6
Strategic Goal: Economic                                      uWork proactively with DOT financial managers to cor-
                                                              rect material weaknesses in their accounting systems in an
Growth and Trade                                              effort to achieve an unqualified, or clean, audit opinion
                                                              in their FY 1999 financial statements.

                                                              uIssue OIGs audit report on DOTs FY 1998 financial
uConduct, or contract for, an independent analysis of
                                                              statements by March 1999.
FAAs cost-accounting system.

                                                              uContinue oversight of DOT work on Year-2000 comput-
uReview FAAs efforts to implement its Acquisition
                                                              er problems.
Management System.

                                                              uWork with chief information officers throughout the
uDetermine whether DOTs current regulatory approach
                                                              Department to enhance computer security.
to travel agent commission overrides is appropriate.

                                                              uEvaluate Departmental oversight of university research
uEvaluate the Turner-Fairbanks Highway Research
                                                              studies and grants.
Centers acquisition policies, procedures and practices.
uComplete an independent assessment of Amtraks finan-
                                                              uInvestigate contract, grant, and procurement fraud.
cial viability.




Strategic Goal: Human and
Natural Environment                                           uCoordinate, with RSPA and a team from all operating
                                                              administrations overseeing hazardous materials, an eval-
                                                              uation of DOTs HAZMAT transportation program.

uReview Federal Highway Administration oversight of
                                                              uPlace priority on investigations of hazardous materials
state use of Congestion Mitigation Air Quality program
                                                              violations including participation in Environmental Crime
funds in reducing pollutants and greenhouse gases.
                                                              Task Force operations in multiple geographic locations.

uEvaluate the Maritime Administrations progress
toward its goal of scrapping obsolete vessels.

Strategic Goal: National
Security
                                                              uAssess the effectiveness of Maritime Administration
                                                              internal controls ensuring accuracy of payments under the
                                                              Maritime Security Program.
uReview FAA oversight of the security of checked bag-
gage on flights within the United States.
                                                              uReview the U.S. Coast Guards efforts to meet perform-
                                                              ance goals regarding countermeasures against illegal drug
uAssess progress by FAA, airport operators, and air carri-
                                                              importation.
ers in correcting security weaknesses in the area of access
control, as earlier reported in OIG audits or identified by
the White House Commission on Aviation Safety and
Security. We will also follow up on deployment of explo-
sive-detection systems.


                                                          7
                         DOT: Measure air carrier arrival data uniformly

                         Airlines use on-time arrival statistics as a major marketing tool. We undertook
                         an audit of aircraft arrival data (report FE-1998-103) after it was alleged that
                         two airlines were submitting falsified arrival data to the Department of
                         Transportation. While we found no significant evidence of falsification, OIG
                         noted that various airlines used different measures to establish arrival times. As
                         a result, we suggested the Department set a single definition for gate arrival.
                         We also recommended that the Department disclose in its public report whether
                         an automated or a manual system is used by each airline to record arrival times;
                         manual recording gives airlines greater leeway to manipulate arrival data. The
                         Department agreed to do it. Further, the Department directed airlines to use the
                         setting of an aircrafts parking brake as the standard measure for gate arrival.

FAA: $1.5 billion wasted on air-traffic-control system development

Late in 1997, the Senate Appropriations Committee's Subcommittee on Transportation asked OIG
to examine the costs of FAA's Advanced Automation System (AAS), the centerpiece of FAA's air
traffic control modernization efforts in the 1980s and early 1990s. Because of serious cost growth
and schedule delays, AAS was restructured into more manageable pieces in 1994. OIG's report
(AV-1998-113) found that, of $2.6 billion spent on AAS, about $1.5 billionsome 57 percent
represented losses to the Federal government. OIG also looked into issues of liability and cul-
pability. Though the contract was restructured and most liability issues were waived, the govern-
ment reserved the right to act against contractor fraud or waste. OIG, in coordination with the
Defense Contract Audit Agency and the Justice Department, now is investigating a case involv-
ing alleged excess lease charges.



                          Aircraft parts robbery/resale leads to prison term,
                          $900,000 restitution

                          Miami aircraft parts broker Thomas David "Buddy" Hinton was sentenced by
                          a U.S. District Court judge to 5 years and 10 months in prison and 3 years'
                          supervised release, and ordered to pay $900,000 in restitution for his role in
                          an aircraft repair-station robbery and his involvement in the illegal resale of
                          parts stolen in the heist. Among the stolen parts were jet engine disks, blades,
                          and vanes later sold or laundered through two aviation parts companies
                          owned by an accomplice. Hinton falsified FAA-required certifications to
                          resell the stolen parts. The case was jointly investigated by OIG, the FBI and
                          the Miami-Dade County Police Department.


                                                8
                                                                          April 1998

              FAA: Security guard contracts need better oversight

              Our audit (AV-1998-120) found that the FAA needs to better oversee its con-
              tracts for the security of its facilities. This audit followed up a 1991 review
              on the same topic. Though FAA took some steps to improve contract over-
              sight, neither FAA nor the four contractors we reviewed could document that
              security guards at FAA facilities met minimum contract requirements. There
              was little or no evidence that guards had passed pre-employment suitability
              investigations, firearms training and proficiency tests or demonstrations of
              physical fitness. Further, FAA did not enforce contract requirements for
              background checks on newly hired guards. FAA, responding to the audit,
              said it will step up oversight of the contracts.

Boston Central Artery project:
aggressive cost-control needed

Our audit (report TR-1998-109) showed that costs to complete the Boston
Central Artery projecta replacement of more than 7 miles of urban high-
way plus a new airport-access tunnel under Boston Harborcould rise as
high as $11.2 billion if stringent cost-control was not undertaken immedi-
ately. The State of Massachusetts' estimate for the project rose from $8 bil-
lion in March 1995 to $10.8 billion in September 1997, due to costs not
included in the original estimate. We found a likelihood of higher-than-
budgeted costs for change orders, contract awards and consultant costs in
the absence of aggressive cost-control. OIG also recommended that DOT
more closely monitor costs and credits for owner-controlled insurance on
Federally financed projects, and that DOT should determine whether proj-
ect cost estimates should include interest costs of grant anticipation notes.

      Consolidated Financial Statements: Work needed on accounting systems

      OIG issued a "disclaimer of opinion" on the Department of Transportation's Consolidated
      Financial Statements for the fiscal year ending September 30, 1997 because key elements of the
      statements could not be substantiateda basic requirement of professional financial auditing.
      In our report (FE-1998-105) we concluded documentation was lacking for property, plant and
      equipment reported at $26.5 billion and inventory and related property reported at $2 billion.
      Though verification also was needed in two other areasHighway and Airport and Airway
      Trust Fund excise tax revenues and investments reported at $28.4 billion and $30.9 billion
      those problems stem from practices at the Treasury Department, over which Transportation has
      no control. FHWA made progress correcting prior-year weaknesses. A sense of urgency is need-
      ed; if FAA is without a cost-accounting system, and unable to track its property and costs, the
      agency will have difficulty becoming a fee-financed, performance-based organization.

                                                    9
                     Theft, illegal transport of pesticides and herbicides
                     spur jail time and fine

                     A Fresno, California man was sentenced to nearly 5 years' imprisonment
                     plus a fine of $1,750 for the theft and illegal interstate transport of herbi-
                     cides and pesticides. Ernesto Raymundo was handed the sentence, plus
                     5 years' probation, in Federal court. An associate, Kelly D. Worton of
                     Sanger, California, also was convicted and sentenced to 3 years' impris-
                     onment and 3 years' probation; Worton was fined $2,000. The case was
                     investigated by OIG, the FBI, U.S. Customs, the Internal Revenue
                     Service, the Office of Motor Carriers and the Fresno County Sheriff's
                     Office.


RSPA: Track shippers of hazardous materials more closely

A 1990 Federal lawthe Hazardous Materials Transportation Uniform Safety Act
requires shippers of hazardous materials to register with the Research and Special
Programs Administration, which is part of the Department of Transportation. However, our
analysis (report TR-1998-110) found that while RSPA has taken actions to enforce regis-
tration requirements, it needs to work on four areas. They are: collecting the full amount
of fees intended by Congress from hazardous materials shippers; identifying all new haz-
ardous materials shippers and carriers; following up with recipients of RSPA mailings to
make sure those required to register do so, and maintaining a fair fee structure for regis-
trants. We urged RSPA to create a comprehensive database of hazmat transporters, require
response to its mailingswith followupand set a graduated fee schedule.


                   Coast Guard: Housing projects
                   warrant closer review

                   OIG reviewed 14 U.S. Coast Guard family housing acquisition projects
                   (report MA-1998-112), concluding that 9expected to cost more than
                   $44.6 millionwere not adequately justified. During the audit, 2 of
                   those 9 projects were cancelled and 3 advanced to the acquisition stage.
                   We recommended that the remaining 4 projects be evaluated again prior
                   to construction. The Coast Guard agreed with our recommendations.




                                          10
                                                               April 1998


OIG Hotline: Manager gets letter of reprimand
in helicopter joyriding incident

Following an anonymous complaint to OIGs Hotline, FAA investigated an allega-
tion that a facility manager had allowed two secretaries to take a 20-to-30-minute
joyride on a helicopter being used in a currency flight, for purposes of assessing
pilot qualification. The helicopter was being rented at a cost of $900 per hour.
Following counseling, the manager was issued a letter of reprimand.




                                       11
            Federal Contract Tower program safe and effective

            The contract tower program provides lower-cost air traffic control services at
            110 towers previously operated by the FAA. It also provides air traffic con-
            trol at 50 towers FAA would not staff on grounds of high operating cost.
            During the audit (report AV-1998-147) OIG found contract tower controllers
            met qualification requirements and received required training. However, not
            all contract towers were staffed according to agreements between FAA and the
            contractors. As a result, FAA sometimes paid for air traffic control services not
            delivered. Although we found the quality of contract service comparable with
            FAAs, we recommended that FAA periodically review contractor-set staffing
            levels at contract towers. We also recommended that FAA recover $2.4 mil-
            lion in overpayments to one contractor, and review staffing by two other con-
            tractors, recovering overpayments. FAA agreed with all recommendations.


$3 million motor fuel tax evasion nets 3 years

Arkady Shuster of New York City was sentenced in U.S. District Court in
Hauppauge, NY to 3 years and 1 month of confinement, 3 years' probation, and
a fine of $50,000. He pleaded guilty in March 1997 to two counts of conspiracy,
two counts of tax evasion, and one count of fraudulent use of an IRS form.
Shuster and eight othersJeffrey Broner, Anna Keylin, Robert Meester, Igor
Oransky, Eugene Rakovsky, Nicholas Uccio, Leon Uzdin and Vladimir Zak
were indicted in November 1992 for their alleged involvement in a conspiracy to
evade more than $3 million in excise taxes on approximately 45 million gallons
of gasoline.


             Improvements needed in aviation security

             In testimony before the U.S. House Transportation and Infrastructure
             Committee's Subcommittee on Aviation (report AV-1998-134), Deputy
             Assistant Inspector General for Aviation Alexis Stefani noted that the
             Federal Aviation Administration has made progress in developing an
             oversight program for dangerous goods and cargo security. However,
             OIG still has found substantial rates of noncompliance with security
             requirements affecting such items. Stefani also said deployment of new
             explosives-detection equipment has been educational for FAA employ-
             ees staffing it; however, the equipment is underused by airlines and is
             not performing up to all established standards. Finally, Stefani said the
             FAA needs a strategic plan for meeting threats to aviation security.


                                  12
                                                                            May 1998

           Coast Guard contractor sentenced
           in faulty windshields case

           A fine of $36,500 and restitution of $13,500 were levied against Perkins
           Aircraft Services, Inc. of Fort Worth, Texas in U.S. District Court. The
           firm had pleaded guilty late in 1997 to making false statements to the
           U. S. Coast Guard. Perkins admitted it falsely represented that it had
           repaired and made serviceable 14 windshields on Falcon 20 jets when, in
           fact, the windshields were not airworthy. The Coast Guard has begun
           debarment action against Perkins. This OIG investigation stemmed from
           an undercover operation conducted jointly by OIG, the FBI and the
           Defense Criminal Investigative Service.

Wide Area Augmentation System: questions remain

In response to a request from Congressman Frank Wolf, Chairman of the
Transportation Subcommittee of the House Appropriations Committee, OIG
(report AV-1998-117) outlined recent observations about the Wide Area
Augmentation System (WAAS). The system is a major navigational compo-
nent of air-traffic control modernization now under way at the Federal
Aviation Administration. We advised the chairman that, in our opinion, the
single most critical issue affecting the WAAS program is whether it will be a
primary or sole means of navigation. The decision will affect not only the
WAAS contract and costs, but also the schedule for decommissioning exist-
ing navigational aids. We also advised the chairman that WAAS will be
affected by unanswered technical questions, plans for funding cuts in the
coming fiscal year and new thinking on the need for a secondary, or backup,
system. Also see our later audit report, AV-1998-189, in August.

       Former aircraft mechanic fined for lying about maintenance

       Richard Plenkers of Monroe, Wisconsin, a former mechanic for Skyway Airlines, was
       handed a $1,500 fine and placed on 2 years' probation by a U.S. District Court judge in
       Rockford, Illinois following Plenkers' admission he installed unapproved bearings. The
       mechanic had earlier pleaded guilty to a charge of conspiracy to defraudby impeding the
       Federal Aviation Administrationand by making false statements on aircraft maintenance
       records. Plenkers and the firm he had worked for falsely recorded FAA-approved part
       numbers on maintenance records to conceal the faulty installations. Six other defendants
       were sentenced in this scheme.




                                                  13
                                                                      May 1998

Aviation mechanic sentenced to 14 months in prison

Gregory Allen McConnell, a former FAA-licensed airframe and powerplant mechanic, was
sentenced to 14 months incarceration, fined $60,000, and placed on 36 months supervised
release in U.S. District Court in Oxford, Mississippi. Restitution of $66,494 was suspended
because McConnell had no means to pay it. McConnell, of Clouer, South Carolina, pleaded
guilty in July 1997 to conspiracy to commit wire fraud. It was alleged he falsely represented
his overhaul work on general aviation aircraft at two firms in North and South Carolina as
rendering engines airworthy, when they were not. The case was referred to OIG by FAAs
Flight Standards division.




                         Illegal pesticide shipment spurs 16 months' confinement

                         A Miami, Florida freight forwarderAngel Dante Fuenteswas ordered
                         jailed for 8 months and confined at home for an equal time following his
                         guilty plea in an illegal pesticide shipment case. Last October Fuentes'
                         firm attempted to ship bags of "Dowicide," a pesticide, to South America
                         on a passenger jet. One of the bags tore open, releasing fumes which
                         spurred the evacuation of the plane's passenger compartment. Another
                         shipment of the subtance was found on a vessel bound for South America.
                         The U.S. District Court judge hearing the case also placed Fuentes on 3
                         years' supervised release. The case was investigated by OIG, the FBI and
                         the Environmental Protection Agency.



         FAA: Budget reprogramming check finds inconsistencies

         The Inspector General sent a report to Congressman Frank Wolf, Chairman of
         the House Appropriations Subcommittee on Transportation and Related
         Agencies, regarding FAAs requested reprogramming of $34 million during
         Fiscal Year 1998 for the Standard Terminal Automation Replacement System
         (STARS) and the Air Route Traffic Control Center (ARTCC). OIG found sig-
         nificant variances in the amounts proposed for reduction by budget line-item
         from the actual amounts reprogrammed.




                                            14
15
Security controls still lacking over air courier shipments

OIG and FAA jointly reviewed security controls for air courier shipments on domestic and
foreign air carriers (report AV-1998-149). We found air carriers were making progress com-
plying with cargo acceptance requirements on passenger aircraft. However, there was sub-
stantial noncompliance by air couriersintermediaries placing cargo with air carriers for
shipment on passenger aircraft. The low compliance level for courier test packages shipped
on such aircraft was a matter of special concern. FAA plans to take several actions to pro-
mote consistent compliance and strengthen air cargo security.




                           OIG hosts first Departmental civil enforcement
                           conference to combat fraud

                           OIG's Office of Investigations and the U.S. Attorneys Office for the
                           District of Columbia jointly sponsored an affirmative civil enforcement
                           conference in Washington. Affirmative civil enforcement is a white-col-
                           lar crime initiative that targets fraud in Federal procurement and con-
                           tracting programs. The conference was designed to help departmental
                           personnel identify and combat fraud. More than 100 people participat-
                           ed. Speakers included Wilma Lewis, U.S. Attorney for the District of
                           Columbia (pictured at left) and DOTs Inspector General.



     U.S. Coast Guard: agency needs should
     determine postgraduate training

     An OIG audit (report MA-1998-148) found that the U.S. Coast Guard has based
     the number of officers engaged in full-time postgraduate schooling on past prac-
     tices rather than the agency's need for officers with particular skills. As a result,
     officers are allowed to attend graduate school full-time even though the number
     of officers holding advanced degrees already exceeds the Coast Guard's require-
     ments. We suggested the Coast Guard justify the number of officers going to
     graduate school full-time and base such assignments on agency needs. Coast
     Guard officials concurred.



                                            16
                                                                               June 1998

Wholesaler sentenced for illegally shipping
hazardous fluids on commercial aircraft

A North Fort Lauderdale, Florida chemical wholesaler who admitted vio-
lating a Federal law barring shipment of hazardous materials on com-
mercial aircraft was sentenced to 2 years' probation. Peter Petakos,
owner of Sparten Chemical, shipped fuel-detergent supplements, which
are flammable, via Federal Express without the knowledge of the couri-
er. OIG's investigation revealed that Sparten Chemical falsely labeled the
packages as containing household cleaners, violating regulations that
require declaration, appropriate packing and labeling of hazardous mate-
rials. FedEx discovered the shipments when the chemicals leaked in tran-
sit. OIG and FAAs Dangerous Goods division investigated the case.

             Maritime Security program: vessel selection appropriate,
             payments to private operators under MARAD review

             The Maritime Security Act, passed by Congress in 1996, requires the Maritime
             Administration to establish a fleet of privately owned and operated vessels capa-
             ble of assisting the U.S. Government during a war or national emergency. In our
             audit of MARAD's actions in keeping with that statute, we found (audit MA-
             1998-156) that MARAD properly followed the criteria set out in the act in select-
             ing vessels under the law's Maritime Security Program. OIG recommended that
             MARAD finish its first annual program review on time. The review will deter-
             mine whether the sums paid to private vessel operators in 1997 are properly sup-
             ported.

Guilty plea entered in false cylinder-safety tests

William B. Courtney, owner of a now-defunct fire protection company in
Memphis, Tennessee, pleaded guilty to a charge of mail fraud for certifying
that the company had performed safety tests on compressed gas cylinders. In
fact, it had not. Courtney's firm, Columbia Fire Protection, marked the
untested cylinders with another company's Federal authorization number
indicating required testing had occurred. Testing helps prevent the possible
explosion of cracked or otherwise faulty cylinders. Courtneys customers
included hospitals and schools in metropolitan Memphis, the Memphis
branch of the Federal Reserve Bank of St. Louis and private corporations.
OIG and the FBI executed a search warrant on the company in September
1997, with assistance from the Research and Special Programs
Administration.
                                                    17
             Trucking firm, owner plead guilty in case
             involving diabetic driver

             Ernest A. Jones Jr. and his trucking firm, Transcorps Enterprises, Inc.
             of Harrisburg, Pennsylvania, pleaded guilty to violating Federal motor
             carrier regulations and were fined $25,000 each in U.S. District Court.
             Jones and the firm were charged following the March 6, 1997 traffic
             death of a driver for the firm, Allen Jacobs, who had insulin-depend-
             ent diabetes. Because of his medical condition, Jacobs was unqualified
             to legally drive a commercial vehicle. The case was investigated by
             OIG and the Office of Motor Carriers.



Coast Guard retired pay and health care: actuarial
estimates off by $1.3 billion

The U.S. Coast Guard uses an actuarial model to estimate its liabilities for
retired pay and medical benefits. As part of OIG's audit of DOT's Fiscal Year
1997 Consolidated Financial Statements, the Hay Groupunder contract with
OIGstudied the Coast Guard's actuarial model. The Coast Guard reported an
actuarial liability of $14 billion for military retired pay and health care costs.
The Hay Group study (report FE-1998-151) showed the estimate incorrectly
applied actuarial assumptions. The magnitude of the errors prevented the Hay
Group from conducting a complete audit or estimating potential impact.
Correction of the major errors would have increased the Coast Guard's total lia-
bility by $1.3 billion.


               Risks still faced by Los Angeles Metro Rail
               Red Line project; costs, schedules reasonable

               OIG, in its review of the Los Angeles Metro Rail Red Line project (report
               TR-1998-154) found that projected costs and schedules are reasonable.
               However, funding for the North Hollywood extension of the subway sys-
               tem still faces risks. For example, Congress has yet to provide about
               $150 million in funds that project managers are depending on to cover
               costs. Further, the Los Angeles Metropolitan Transit Authoritys overall
               capital and operating budgets still have significant shortfalls. The author-
               ity has developed a recovery plan to address these shortfalls, and that
               plan was the subject of a separate OIG review, report TR-1998-176.


                                   18
                                                                                June 1998

      Largest fuel tax fraud case in U.S. history spurs multiple convictions

      As a result of OIG work in a multi-agency task force, a U.S. District Court jury in Camden, New
      Jersey convicted Daniel Enright, former head of Petro-Plus Petroleum of Deptford, New Jersey,
      of multiple charges relating to the most massive fuel tax fraud case in U.S. history. Three other
      defendantsDemetrios Karamanos of Norwood, New Jersey, Richard Pedroni of Clermont, New
      Jersey and Mary Ingram of Woodbridge, New Jerseywere convicted of related charges; two
      other defendants, John Ruocco of New Jersey and Michael Lipkin of New York City were acquit-
      ted. Sentencing is scheduled December 1. This prosecution, involving the alleged evasion of more
      than $140 million in state and Federal taxes, arose from a 1995 indictment of 25 people; 17 defen-
      dants pleaded guilty and two remain fugitives. The cases were brought by a multi-agency task
      force which included OIG, the Internal Revenue Service, the FBI, and Department of Justice pros-
      ecutors.


Incendiary flares hidden in luggage trigger $3,000 fine

Leo Guy Cauvin, a French resident of Germany, was fined $3,000 following
his arrest by OIG special agents for attempting to transport undeclared,
incendiary signal flares in his aircraft luggage. Ramp personnel at Miami
International Airport noticed smoke coming from a piece of Cauvins lug-
gage as he was changing planes en route to Frankfurt, Germany. Inside were
several signal flares, one of which had ignited. Flares, which pose a serious
threat to aircraft and passengers because they burn with great heat, are con-
sidered incendiaries and pyrotechnics under Federal regulations; carrying
them in luggage is illegal.



           DOT: Operating Administrations should award
           discretionary funds by highest priority, or explain other selections

           The Department's Operating Administrations follow certain steps to rank projects that
           are eligible for discretionary funding. Selecting the highest-ranked projects would gen-
           erally appear to be the best use of taxpayers' dollars; however, a number of the highest-
           ranked projects are not funded. While valid reasons can exist for funding lower-ranked
           projects, rationales supporting such decisions must be clearly documented. We recom-
           mended (report MA-1998-155) that DOT set firm Departmentwide policy for awards of
           discretionary funds. In our opinion, such a policy would be an excellent candidate for
           the Secretary's "One DOT" initiative. It should require the funding of the highest-prior-
           ity national projects, and documentation to support decisions to fund projects of lower
           priority.

                                                    19
   Dangerous goods/cargo security: FAA needs closer
   aviation industry cooperation

   Our review of FAA's new dangerous goods/cargo security program (AV-1998-178) found that
   FAA has made progress developing and redefining policies, procedures and controls for the pro-
   gram. However, field tests by FAA and OIG disclosed substantial noncompliance with program
   regulations. That occurred, in part, because employees of airlines and "indirect air carriers"
   needed more management oversight. An indirect air carrier accepts cargo from a shipper and
   delivers it to commercial airlines for transport. An air freight forwarder is considered an indirect
   air carrier. Without adequate compliance by industry, vulnerability to criminal or unsafe activity
   is heightened.


Ready-reserve fleet thieves sentenced

Several defendants convicted in connection with a ring that stole more than
$150,000 worth of copper cable and ships artifacts from a Maritime
Administration reserve fleet (pictured at right, anchored in rows) were sen-
tenced in U.S. District Court in Sacramento, CA. Steven Smith was sen-
tenced to 18 months' incarceration and 3 years' supervised release and
ordered to make restitution of $153,820; Michael Woodyard was sentenced
to 1 year and 1 day in jail, 3 years' supervised release and restitution of
$153,820, and Dominick L. Fulco was sentenced to 3 years in a halfway
house, 3 years' probation and restitution of $10,800. Also sentenced were
Marlon Burton, to 6 months' home detention, 3 years' probation and
$24,400 in restitution, and Desare Pelonio, to 4 months' home detention, 3
years' probation and restitution of $28,941. The case was investigated by
OIG.

       FAA: Contract expires, STARS monitor supply must be preserved

       In an update of our ongoing review of FAA's Standard Terminal Automation Replacement
       System, a component of air traffic control modernization, OIG found (in report AV-1998-
       169) that FAA failed to budget enough funds to acquire the remaining 1,205 display moni-
       tors needed for the STARS program. Because contract options were allowed to expire, FAA
       needs to take immediate action to ensure a future supply of the monitors. FAA stated it will
       continue to work with the Office of the Secretary and with Congress to ensure both near-
       term and future funding requirements for display monitors.



                                                   20
                                                                      July 1998

Waste illegally transported; firm sentenced,
principals fined and incarcerated

After illegally moving hazardous waste to a facility that lacked a permit, Lam Pine, Inc. of
Payette, ID and trucking firm LHT, Inc. of Union, OR were found in violation of the
Hazardous Materials Transportation Act along with their principals. George Elwood Betts of
Donnelly, ID, owner of Lam Pine, was ordered jailed 14 days, placed on 5 years probation
and ordered to pay $163,227 restitution/special assessment. Betts had ordered 238 drums of
waste paint and thinners moved from Le Grande, OR to Payette, ID without required mani-
fests, placarding, or data sheets. Larry J. Hatch, owner of LHT, Inc., was handed a 180-day
sentencewith 130 days suspendedplus 2 years probation, a fine of $2,000 and $5,350 in
court costs. LHT, Inc. was fined $1,500 plus a $200 assessment and placed on 2 years proba-
tion; Lam Pine, Inc. was placed on a year's probation and fined $2,500 plus a $200 assessment.
The case was jointly investigated by OIG and the Environmental Protection Agency.


                    Unprecedented $5 million fine and restitution
                    in unapproved parts case

                    Arrow Air of Miami, Florida was dunned $5 million by a U.S. District Court
                    judge following its guilty plea to six counts of making false statements to the
                    FAA. Arrow Air, an all-cargo air carrier, removed some 3,000 aircraft parts
                    from planes not registered or operated in the United States, then represented
                    the parts as FAA-sanctioned for installation in this country. In a precedent-
                    setting ruling, $2 million of the levy against the firm was categorized as resti-
                    tution, designated for the use of the Center for Aerospace Safety Education
                    at Embry-Riddle Aeronautical University in Daytona Beach, Florida. The
                    school will use the funds to educate and perform research related to problems
                    caused by unapproved parts in civil aviation.


Alternate regulatory steps achieve comparable safety levels

FAA allows divergence from its safety regulations, with its formal approval, if alternate pro-
visions are made to ensure safety. OIG reviewed the documentation and rationales in 58
deviations or exemptions granted by FAA since 1973 (report AV-1998-171). The rationales
offered in granting themas well as alternate measures taken to achieve comparable safe-
ty levelswere reasonable and well-documented in all instances but one. That was a devi-
ation from emergency equipment required for extended operations over water; following
our discussions with FAAs associate administrator for regulation and certification, that
deviation was withdrawn.


                                          21
         FAA: Inactivation of military specifications for fasteners
         requires advisory notification to industry

         At the request of the chairman of the National Transportation Safety Board, OIG reviewed
         potential effects on the commercial aviation industry of the May 1997 inactivation of mili-
         tary specification MIL-S-8879C. The specification applies to testing standards for threaded
         fasteners and components used in high-stress systems, such as aircraft engines and landing
         gear. On May 6, the Federal Aviation Administrator advised Senator John McCain that FAA
         regards the specification as still binding, despite its inactivation by the military. Based on our
         discussions with technical experts and our analysis of data, we concluded (report AV-1998-
         177) the inactivation could cause some manufacturers to use less-stringent testing standards.
         Over time, that could pose an aviation safety risk. We recommended, and FAA agreed to
         issue, a notification to the commercial aviation industry regarding FAAs policy.


Los Angeles Metropolitan Transit Authority:
recovery plan is reasonable, but risks remain

Following OIG review of the Los Angeles Metropolitan Transit Authority's
financial recovery plan, addressing shortfalls in the capital and operating
budgets, we concluded the plan is reasonable and agreed with the Federal
Transit Administration's recommendation it should be accepted (report TR-
1998-176). We noted, however, that the plan identifies a $1.1 billion shortfall
between projected revenues and costs, which MTA needs to cover with addi-
tional revenue, funding or cost efficiencies. We recommended that Congress
require the transit authority to give priority funding to the North Hollywood
extension of the Red Line subway and to requirements of a consent decree
aimed at improving the system's bus service. We also recommended addi-
tional FTA oversight.


                 Fraudulent credentials draw sanction
                 against aircraft repairman

                 Stephenson Antoine, a former aviation mechanic for STS Services, Inc. of
                 Nashville, Tennessee, was sentenced to 2 years' probation in Federal court.
                 Antoine was convicted of submitting a fraudulent FAA airframe and power-
                 plant certificate to STS Services to get his job there. As a condition of his pro-
                 bation, Antoine must notify any future aviation-related employers of the
                 nature and circumstances of his crime and conviction. The investigation was
                 referred to OIG by the FAA Civil Aviation Security division.




                                                       22
                                                                                  July 1998

Logbook falsification admitted by trucking company owner

John Hoth of Cedar Rapids, Iowa pleaded guilty in U.S. District Court to falsi-
fying Federally required truck-drivers logbooks. The logs track the number of
hours commercial truckers drive; regulations require intermittent breaks for
sleep to prevent accidents caused by tired truckers. Six drivers for Hoths
trucking firm, Shuttle Service Express, earlier pleaded guilty to the same offense
following their indictments in October, 1997. In his plea agreement, Hoth
admitted that the conduct of his company involved a conscious or reckless risk
of serious injury. OIG and the Federal Highway Administrations Office of
Motor Carriers jointly investigated the case.




      $20.3 billion in Treasury adjustments
      lead to DOT financial statement consistency

      In response to an Office of Management and Budget request to chief financial officers and
      inspectors general throughout the Federal government, OIG cross-checked Department of
      Treasury data against the Department of Transportation's Consolidated Financial Statements for
      Fiscal Year 1997. At issue was the consistency of information in a system known as "FACTS,"
      the Federal Agencies' Centralized Trial-Balance System. When the two sets of data did not ini-
      tially reconcile, Treasury made $20.3 billion in adjustments to its data and resubmitted the
      adjusted information to DOT. OIG then certified (report FE-1998-164) that the FACTS data
      were consistent in all material respects with DOT's audited FY 1997 consolidated financial
      statements.


   Substandard aircraft parts spur sentences for two

   "Operation Breakapart," an undercover operation involving OIG, the FBI
   and the Department of Defense, prompted sentences for both the owner
   and foreman of an FAA-certified aircraft repair station alleged to have sup-
   plied substandard aircraft parts to DOD and civil aviators. Gary Hodgson,
   owner of Oro Valves of Azusa, CA, was sentenced to 18 months' incarcer-
   ation and 3 years' probation, while the firm's foreman, James Larios, was
   handed 6 months' home detention. Hodgson also was ordered to pay
   $2,000 in restitution by a U.S. District Court Judge in Los Angeles. The
   firm and the two men were charged with conspiracy to submit false claims
   to the government.




                                                      23
                          FAA: Employees' free flights pose
                          ethical problems; abuses should stop

                          OIG called for an end to abuses in an FAA program that set out to familiarize
                          FAA employees with problems and conditions on board aircraft, but evolved
                          into a front for free travel to resort and vacation destinations for some users. In
                          our report (AV-1998-170), OIG found that the Liaison and Familiarization
                          Training program, sometimes called the "FAM" program, represents a serious,
                          continuing and widespread lapse of ethics within FAA. Not only does the pro-
                          gram violate Federal laws barring gifts to employees and ethics rules barring
                          use of public office for private gain, but the practice creates an appearance of
                          impropriety because FAA regulates the air carriers offering the flights. The
                          FAA administrator subsequently declared the program non-negotiable with the
                          National Air Traffic Controllers Association, and in a letter to Sen. McCain con-
                          curred with OIGs audit and the need for prompt action.
FHWA official pleads guilty to conspiracy, bribery,
and money-laundering

Alberto Santiago, a former Federal Highway Administration official who resigned while under inves-
tigation, pleaded guilty in U.S. District Court for the District of Columbia. Santiago, of Herndon,
VA, was charged with conspiracy, bribery, and money-laundering; he faces up to 40 years in prison
and $1 million in fines. Sentencing is pending. An OIG investigation, jointly carried out with the
FBI, disclosed that between 1993 and 1997 Santiago solicited and received more than $150,000 in
cash and money orders from government contractors over whom he had official responsibility, let-
ting them submit fraudulent invoices to reimburse themselves for the illicit payments. In a related
case, Hobih Chen, owner of the Viggen Corp. of Sterling, VA, pleaded guilty to conspiracy, bribery
and money-laundering. Chens firm was among those alleged to have paid bribes to Santiago. He
faces up to 5 years imprisonment and $250,000 in fines. The investigation continues, and an audit
of the facility where Santiago worked is under way.

                          Spot-check on California road repairs:
                          emergency funds not abused

                          In an audit issued in August 1997 and in earlier reports, OIG found prohibited
                          use of Federal emergency relief highway funds allotted for restoration of high-
                          ways that have been damaged, typically by natural disasters. In our recent fol-
                          lowup to that review (report TR-1998-191), OIG's check on 203 engineers'
                          reports supporting bids for emergency relief triggered by severe California
                          flooding late in 1997 and early in 1998 showed conformance with Federal reg-
                          ulations. Further, the Federal Highway Administration correctly rejected three
                          bids for emergency relief that were out of conformance. OIG's discovery of a
                          computer error that could have led to double payment on one project, in the
                          amount of $6.7 million, led to correction of that error.
                                                24
                                                                 August 1998

DOT, FAA computer security lacking; Year-2000 progress made

Deputy Assistant Inspector General John Meche provided observations on FAAs Year-2000 computer
program and on computer security issues within FAA and DOT, at a hearing of the U.S. House Science
Committees Subcommittee on Technology. In the observationslater released as report FE-1998-187
Meche noted that FAA has made substantial progress on its Year-2000 computer issues within the
past 6 months. FAA had reported it was on schedule to fix all known Year-2000 problems by
September 30, 1998; however, OIG found that 6 FAA systems now under development had not been
assessed for Year-2000 vulnerability. FAA also reported that 102 of its mission-critical systems will not
be tested and implemented by OMBs milestone date of March 31, 1999. Meche also noted that DOT
has not obtained guarantees of security compliance from outside users of its computer networks, and
only one of 20 DOT networks has been certified secure. FAA, further, plans to place both its front-line
and backup Host air traffic-control-related computers in the same room, posing a data-destruction threat
if some event such as a fire rendered both inoperable.

                            Log-falsifying trucker sentenced in vehicular homicide

                            A year's imprisonment and a fine of $1,800 were ordered by a Pennsylvania
                            court for Bennie Hilton, a truck driver from Miami, Florida found guilty of
                            vehicular homicide. He was found to have caused one death and another seri-
                            ous injury in a highway accident May 20, 1997. Further, Hilton has pleaded
                            guilty to a Federal false statements charge based on his maintenance of false
                            drivers logs. Sentencing on that charge remains pending. OIG's investigation
                            found that Hilton, who also was placed on probation for 2 years by a
                            Pennsylvania state judge in Allentown, had falsified his driver's log the day
                            before the accident to show he had been off-duty when in fact he had been con-
                            tinuously driving more than 24 hours. Hilton's tractor-trailer crossed the cen-
                            ter line, striking several other vehicles.



       Construction Firm Sentenced for disadvantaged business contract fraud

       Brothers Construction Co. of Ohio, Inc. was sentenced to 3 years' probation for conspiracy and
       making false statements in connection with work on an interstate highway project. The
       Columbus, OH firm was sentenced in Federal Court in Wheeling, WV. Brothers was convict-
       ed in November, 1997 following allegations the firm had let its certification as a disadvantaged
       business enterprise be used to front for work performed by an uncertified contractor that was
       required to be directed to a disadvantaged enterprise. Weeks later, in a separate case, Tri-State
       Asphalt of Wheeling, WV was fined $500,000 and sentenced to 3 years probation in connec-
       tion with the scheme. Tri-State was the prime contractor on the job. The cases were jointly
       investigated by OIG and the West Virginia Department of Transportation.


                                                  25
   Former transit director pleads guilty in theft of Federal transit funds

   Cecil Rhodes, the former director of the Tuscaloosa County Parking and Transit Authority in
   Tuscaloosa, AL, pleaded guilty to one count of theft in connection with a kickback scheme. In
   the plea agreement, Rhodes agreed to make restitution of $155,287. The Federal Transit
   Administration supplies the authority with more than $10,000 in annual grant money to cover
   bus maintenance and related services. In 1996, prosecutors allege, a contract diesel mechanic
   for the authority conspired with Rhodes to inflate repair invoices to the authority, generating
   funds which became kickbacks.




                           $600,000 embezzlement brings prison term, seizure of assets

                           Following an OIG investigation, former FAA accountant Louise Lathrop was
                           sentenced to 2 years' imprisonment, 3 years' probation and the payment of
                           $600,000 in restitution following her guilty plea to charges of theft and fraud.
                           Lathropwho used her access to FAA's computer system to mail U.S.
                           Treasury checks in her name to her homewas sentenced in U.S. District
                           Court in Kansas City, MO. Bank accounts held by Lathrop were seized,
                           yielding $128,538and she agreed to forfeit her outstanding salary and
                           retirement benefits, her house, a car, and a motorcycle.




FAA cost-accounting: some progress, but system is behind schedule
and hampered by financial-control deficiencies

In our initial report on FAA's efforts to put a cost-accounting system in place (FE-1998-186), OIG
found that FAA has made substantial progress but more needs to be done. Further, implementation
of the system is behind schedule and underlying financial control deficiencies will continue to gen-
erate inaccurate and indefensible cost data. OIG's audit sought to determine whether the new cost-
accounting system captured and allocated all costs, was tested to provide reliable information for
performance measurement and could be used to support user fees. We found FAA still needs to
identify and show accounting adjustments, project development costs, other agencies' costs for air
traffic services and labor costs. Until FAA improves its accounting and accurately accounts for its
property and costs, it will not receive an unqualified (or clean) opinion on its financial statements
and will not have a cost-accounting system that produces accurate data.

                                              26
                                                                    August 1998

             Plea, settlement lead to $500,000 restitution

             A construction firm that did business with the Massachusetts Bay Transportation
             Authority agreed to pay $500,000 in restitution following its guilty plea to one count of
             bribery. Modern Continental Construction Co. Inc. of Cambridge, MA entered the plea in
             connection with allegations the firm provided free work and materials to former MBTA
             engineer Joseph Monteiro, who had authority over part of the $500 million, FTA-financed
             Old Colony Railroad project. Monteiro also has been indicted in connection with the
             alleged scheme. Massimo Marino of North Reading, MA, a vice-president with Modern
             Continental Construction, pleaded guilty to one count of providing and causing others to
             provide free work and materials to Monteiro with intent to influence Monteiros actions.
             Marinos sentencing is set for December. The cases were investigated by OIG, the FBI and
             the Massachusetts Office of Inspector General.



Bus hijacker gets 30 years

A New Jersey state court handed a 30-year sentence to Dwayne Thomas of
Camden, NJ, charged in the hijacking of a New Jersey Transit bus in
Camden May 13, 1997. Thomas, previously convicted of murder, pleaded
guilty to the bus-related charge and was handed a concurrent 10-year sen-
tence for aggravated assault on a police officer and another 7 years for ille-
gal possession of a handgun. OIG worked with the U.S. attorney, at the
request of the transit system, to coordinate Federal and state prosecution
efforts in the case.



               FAAs Wide Area Augmentation System: schedule
               unrealistic, backup system needed for foreseeable future

               Our report (AV-1998-189) highlighted four issues in our continuing review of
               FAAs Wide Area Augmentation System. First, we noted that Congressional
               report language for the DOT Fiscal Year 1999 appropriation limited financial
               commitment to the WAAS program. Second, FAA needs to formally acknowl-
               edge its current schedule for final-phase implementation of WAASDecember
               2001will not be met, and set a more realistic schedule. Third, FAA should
               delay making commitments for more communications satellites until operating
               experience with WAAS is gained. Finally, FAA needs to ensure that the final
               phase of WAAS is functioning before decommissioning existing navigation sys-
               tems.



                                                      27
                   OIG staff member addresses Welfare-to-Work
                   Transportation Summit

                   Monique West, a clerk in OIGs Human Resources office, was the featured
                   speaker at the Welfare-to-Work Transportation Summit held at the White
                   House Conference Center. Later, she also spoke to the Congressional
                   Black Caucus. West described the opportunities given to her by DOT and
                   the benefits of the Welfare-to-Work program. In attendance were senior
                   administration officials including Secretary of Transportation Rodney
                   Slater, NHTSA        Administrator Ricardo Martinez, FTA Deputy
                   Administrator Nuria Fernandez, FRA Administrator Jolene Molitoris,
                   FHWA Administrator Kenneth Wykle, RSPA Administrator Kelley Coyner
                   and DOT Inspector General Kenneth Mead.

FAA personnel reform

Our audit (AV-1998-214) reviewed FAA's progress in implementing personnel reform. In
1994, heeding findings of the National Performance Review that FAA's air traffic control
budget, procurement and personnel rules were cumbersome, Congress directed DOT to
look into reforms. A resulting 1995 report recommended exemption of FAA from Federal
personnel rules, a position adopted by Congress. Nearly 3 years later, FAA has initiated
two compensation systems affecting 33 percent of its workforce. However, FAA faces
several challenges in implementing the systems, which are expected to cost some $1 bil-
lion more, over 5 years, than those they replace. Further, compensation issues for FAA's
remaining employeesand hiring, training and location mattersremain in development
or are only partially in place. FAA found the audit results constructive and indicated it will
use many of the recommendations as it develops its new personnel system.

                  Coast Guard: Inspect high-risk containers first

                  Intermodal containers carrying hazardous materials pose threats to life,
                  port-area safety, and the environment. Although the U.S. Coast Guard
                  designed a targeting system to select high-risk hazardous material con-
                  tainers to inspect, our audit (MA-1998-200) found that inspectors were
                  using alternate methods to make such selections. As a result, low-risk
                  containers often were inspected before high-risk containers. The Coast
                  Guard could more effectively inspect higher-risk containers by sticking
                  with its targeting system; the system further could be enhanced by con-
                  sidering containers not identified as holding hazardous material. OIGs
                  review also found that the Coast Guard assessed penalties for non-com-
                  pliance with hazardous material container regulations in accordance with
                  Coast Guard policy.
                                      28
                                                        September 1998

      FAA: Fulfill Congressional mandate to set, and publicize, policies
      regarding airport revenue diversions

      Our audit of FAAs monitoring of airport revenue diversions (AV-1998-201) found that 4 years
      after Congress set explicit requirements on airport revenue use in the law, FAA still has not set
      policies and procedures to carry out that law, and has not provided effective oversight of airport
      financial reporting and audit certification requirements. Airport financial reports we reviewed
      were not always complete and accurate, and financial transactions questioned by FAA during
      review of airport financial reports sometimes were not resolved in a timely way. Further, FAA
      has not done enough to make airports aware of a new audit certification requirement on airport
      revenue use. As a result, FAA cannot fully use the tools and sanctions Congress provided.


FRA Safety program: solid foundation, but
problems extend beyond enforcement

Our effectiveness review of FRA's 3-year-old Safety Assurance and
Compliance Program (SACP) found that the cooperative approach involving
railroads and their employees in solutions has been coincident with lowered
accident and fatality rates. However, our report (TR-1998-210) also found
FRA could strengthen the program four ways: by defining its policies and pro-
cedures more clearly; by developing better railroad safety profiles; by identi-
fying systemic safety issues when approving safety action plans; and by mon-
itoring and enforcing railroad compliance with safety action plans.




  OIG community presents views before Senate Committee
  considering Inspector General Act reforms

  In his capacity as chair of the Legislative Subcommittee of the Presidents Council on Integrity and
  Efficiency (PCIE), the DOT Inspector General presented the results of a comprehensive survey on S.
  2167, the Inspector General Act Amendments of 1998, as part of the Senate Committee on
  Governmental Affairs Sept. 9 hearing on Inspector General Act issues. The legislation, introduced by
  Senator Collins, would make statutory changes to the appointment, organization, management, and
  operations of inspectors general. The survey drew responses from 52 of 57 inspectors general; the
  presentation also included extensive comments and suggested modifications to enhance the bill. There
  was general consensus within the IG community for most of the underlying principles in the legisla-
  tion. Members of the Committee and staff have expressed their appreciation for this survey, which
  will be useful as Congress considers potential changes to the Inspector General Act.

                                                   29
FAA needs to ensure that new employees file financial disclosures

In February 1998, the Office of Government Ethics reported three deficiencies in FAAs ethics
program. Our audit (report AV-1998-207) followed up on those OGE recommendations. We
found that FAA has made progress in resolving two of the three most significant deficiencies
OGE identified. FAA ethics officials have reviewed almost the entire backlog of 1996 and 1997
required financial disclosure reportsnearly 4,000 disclosures. Further, FAA has created a
database to help it track which employees have filed disclosures and attended annual ethics
training. Still needed is a way for FAA to ensure that employees file required disclosures with-
in 30 days of entering covered positions. Without it, FAA will have no way of knowing whether
employees with actual, or potential, conflicts of interest have financial holdings in conflict with
the positions they hold.

       FAA logistics center inventory: use historical cost,
       not current market price

       In our audit (FE-1998-202) we reviewed FAAs implementation of new proce-
       dures to value its inventory to comply with financial accounting standards. For
       these new procedures, adopted by FAA October 1, 1997, to produce accurate val-
       uations, the beginning inventory balance should have been based on historical
       cost. About half the items we reviewed were not properly valued, chiefly because
       the Logistics Inventory System was programmed to use current market price
       instead of historical cost, and inventory managers made manual price adjust-
       ments. We estimated that the inventory value of $571 million was overstated by
       about $66 million as of March 31, 1998. FAA agreed with our results and took
       immediate corrective action.


  California airport diverts more than
  half a million in revenue

  Our audit (AV-1998-196) followed a complaint to OIGs hotline that Imperial County, CA,
  the sponsor of the Imperial County airport, used grant funds to pay for airport operating
  costs unrelated to the grants and interest earned on the grant funds was improperly used to
  pay local matching share of project costs. Further, it was alleged that the county did not
  follow FAA regulations requiring deposit of revenue from a lease on airport property into
  an airport operating account. OIGs review determined the allegation about interest earned
  and used for local matching shares was unfounded. However, we found the county had
  diverted about $553,600 in airport revenue and could not document the spending of
  $221,402 in grant funds. FAA concurred with our results and directed the county to either
  substantiate the accuracy of financial transactions or reimburse the funds to the airport.

                                           30
                                                    September 1998

$120 million worth of parts added to FAA inventory following count

FAA has more than 140,000 spare parts at more than 800 locations throughout the United States.
OIG monitored and tested FAAs latest annual physical inventory of spare parts in the field to
assess the completeness and accuracy of the count. In our report (FE-1998-209) we concluded that
OIG will consider FAAs inventory results to be materially stated and properly supported follow-
ing FAAs own quality-control reviews and correction of inaccurate amounts identified by FAA
and OIG. About 1,000 FAA and contractor employees took part in the inventory, which identified
some 35,000 parts valued at $120 million to be added to FAA financial reports. The labor-inten-
sive effort will be required yearly until FAA establishes a perpetual inventory system to continu-
ously record spare parts received, issued, and on-hand. FAA has agreed to set up such a system
for its field spare parts.

                        Megaprojects: Washington D.C. Metro,
                        Oaklands Cypress Freeway on track

                        OIGs audits of two Megaprojects costing more than $1 billion apiecethe
                        final phases of the Washington, DC subway and reconstruction of the earth-
                        quake-toppled Cypress Freeway in Oakland, CAfound both projects on track.
                        In our Washington Metrorail report (TR-1998-213) we found that Federal, state
                        and local funding will cover construction of the four segments adding 13.5 miles
                        to the systems existing 89.5 miles; final costs may prove lower than the $1.8 bil-
                        lion Metro managers estimated, and the surplus may be used for new rail cars and
                        to build a railyard. Our report on the Cypress Freeway (TR-1998-212) found that
                        the 5.3-mile reconstruction will come in at, or below, the $1 billion state cost
                        estimate; as much as $14 million could be returned to the Highway Trust Fund.
                        The freeway opened Sept. 30.

          Audit finds cruise ship and terminal security plans in place

          Coast Guard regulations require certain passenger ships and shipping termi-
          nals used by passengers to have security plans. Our audit (MA-1998-204)
          examined Coast Guard steps to ensure that such plans are in place. Of the 133
          passenger vesselsall cruise shipsand 66 terminals covered by the regula-
          tions, we found all the ships and all but one of the terminals had such plans in
          place. Further, the single terminal still lacking such a plan, in Samoa, is in dis-
          cussions with the Coast Guard to institute a security plan. Our audit also con-
          firmed an earlier Coast Guard finding that security practices at the Port of
          Miami are not yet consistent with security plans. As a result, the Coast Guard's
          Marine Safety Office in Miami has directed terminals within its jurisdiction to
          update their security surveys.
                                                 31
       Proposed OIG Fiscal Year 1999 Budget
                              (Dollars in Thousands)


                       General Services
 Travel--$1,735        Administration Rent$2,186      Other--
 TASC--$1,277*                                         $1,857




  Benefits--
  $7,318                                            Personnel Compensation--
                                                    $28,118




*The  Transportation Administrative Service Center provides reimbursable services to DOT
operating administrations. OIG pays TASC for services including telecommunications, com-
puter support, printing, copying, building management and the Departments central library.




                                          32
        Organization/Management

                         INSPECTOR GENERAL

                        DEPUTY INSPECTOR GENERAL


                                                                          LEGAL COUNSEL

ASSISTANT IG FOR                 ASSISTANT IG FOR                       COMMUNICATIONS

 INVESTIGATIONS                      AUDITING                    INFORMATION/HUMAN RESOURCES

                                                                  FINANCIAL/ADMINISTRATIVE SVCS.




      DEPUTY                   DEPUTY          DEPUTY            DEPUTY           DEPUTY
      AIG FOR                  AIG FOR         AIG FOR           AIG FOR          AIG FOR
     INVESTIG-                AVIATION         SURFACE         FINANCIAL,       MARITIME/DE-
      ATIONS                                  TRANSPOR-      ECONOMIC &         PARTMENTAL
                                                TATION        INFO. TECH.        PROGRAMS




   The Office of Inspector General for the Department of Transportation was created by
   Congress through the Inspector General Act of 1978 (Public Law 95-452). The Act sets
   several goals for OIG:

                    u To conduct or supervise objective audits and investigations of
                      DOTs programs and operations;
                    u To promote economy, effectiveness and efficiency within DOT;
                    u To prevent and detect fraud, waste, and abuse in the Departments
                      programs;
                    u To review existing and proposed laws or regulations affecting the
                      Department and make recommendations about them, and
                    u To keep the Secretary of Transportation and Congress fully
                      informed about problems in Department programs and operations.

   OIG is divided into two major units and five support units. The major units are the Office
   of Assistant Inspector General for Auditing and the Office of Assistant Inspector General
   for Investigations; each has headquarters staff and regional staff. The support units are the
   Office of Legal Counsel, the Communications Office, the Office of Information Resource
   Management, the Office of Human Resources and Training, and the Office of Financial
   and Administrative Services.
                                            33
           Completed Audits April 1, 1998-September 30, 1998

                       (Dollars in Thousands)

                                                  Estimated Amounts*

Type of Review                           No. of     No. of        Costs           Costs Un-           Funds to
                                         Reports    Recomm. Questioned            Supported           Better Use

Internal Audits:

       Program/Functional                  38         98      $2,407              $217,000            $313,067

       Chief Financial Officer


       Financial Statements:                5         17      $        0          $        0          $130,700
       Total Internal Audits               43        115      $2,407              $217,000            $443,767


Grant Audits:
      Audits of Grantees under
      Single Audit Act                     54         10      $ 396               $        0          $          0
      Other Grant Audits                    5          9      $ 171               $        0          $          0
      Total Grant Audits                   59         19      $ 566               $        0          $          0

Contract Audits:
      Contracts                             5         4       $ 598               $      0            $     19
      Total Contract Audits                 5         4       $ 598               $      0            $     19
      TOTALS                              107       138       $3,571              $217,000            $443,786

                   * The dollars shown are the amounts reported to management. The actual amounts may change
                   during final resolution.




           Department of Transportation programs and operations are primarily carried out
           by the Departments own personnel and recipients of Federal grants. Audits by
           DOTs Office of Inspector General, as a result, fall into three categories: internal
           audits of Departmental programs and operations, audits of grant recipients, and
           reviews of work and spending by contractors. The table above shows OIGs results
           in the three categories for the 6 months covered by this report.


                                                             34
      Management Decisions Regarding Audit Recommendations
                                                (Dollars in Thousands)
                              Number         Number of                                                     Funds to be
                                of           Recommen-           Questioned          Unsupported           Put to Better
     Description              Reports          dations             Costs               Costs*                  Use

      Unresolved                  35              121              24,767                 4,783                  $99,836
     as of 3/31/98
      Audits with
    Findings During               49              138               3,788                   217              $443,786
    Current Period

Total to be Resolved              84              259              28,555                 5,000              $543,622


    Mgt. Decisions:
    A.Audits Prior                24                   69          18,046                 4,783              $         0
        Period

   B.Audits Current
                                  28                   90          3,392                    217              $135,626
       Period

   Total Resolved
                                  52              159              21,439                 5,000              $135,626
Reports/Recommen-
      dations

   Unresolved as of
                                  32              100              7,116                         0           $407,996
     9/30/98**

Aging of Unresolved
       Audits:
Less than 6 mos. old              21               48                 395                    0               $308,160
   6 mos. - 1 year                 4               16                   0                    0                $22,000
  1 year - 18 mos.                 1                   1               0                     0                     $0
 18 mos. - 2 years                 0                   0               0                     0                     $0
  Over 2 years old                 6               35              6,721                     0                $77,836



TOTALS                            32              100              7,116                     0               $407,996
*Unsupported costs included with the figure shown as               ** A report is considered unresolved if management deci-
questioned costs.                                           35     sions have not been made on all report recommendations.
     Audit Reports with Recommendations That Questioned Costs

                                                   (Dollars in Thousands)

                                        Number of             Number of Rec- Questioned                         Unsupported*
                                        Reports               ommendations   Costs                               Costs

A.     For which no manage-
       ment decision had
       been made by start of
       the reporting period  17                               24                    $24,767                 $4,783


B.     Which were issued
       during the period                13                    18                    $ 3,788                 $ 217


   Totals (A+B)                         30                    42                    $28,556                 $5,000
C.    For which a manage-
      ment decision was
      made during the
      reporting period                  24                    32                    $21,132                 $5,001

       (i) dollar value of dis-
       allowed costs                    19**                  22***                 $ 6,417                 $ 250
       (ii) dollar value of
       costs not disallowed             10**                  14***                 $15,028                 $4,750

D.     For which no manage-
       ment decision has been
       made by the end of the
       reporting period       6                               10                    $7,116                  $     0

 *Unsupported costs are also included in the figures shown as questioned costs. ** Includes reports in which costs were both
 allowed and disallowed. *** Includes recommendations in which costs were both allowed and disallowed.

The Inspector General Act requires explana-                           The Inspector General Act also requires this
tions of reasons for significant revisions to                         report to describe any significant manage-
management decisions made during the                                  ment decision with which the Office of
reporting period. OIG follows up on audits                            Inspector General disagrees. At the close of
reported in earlier Semiannual Reports.                               this reporting period, there were no signifi-
During this reporting period, there were no                           cant management decisions with which
significant revisions of Departmental man-                            OIG disagreed.
agement decisions reported to OIG.
                                                             36
          Audit Reports with Recommendations that Funds be Put

                              to Better Use

                                                     (Dollars in Thousands)


                                                           Number of                   Number of                Dollar
                                                           Reports                     Recommend-               Value
                                                                                       ations               (in thousands)
A.        For which no management
          decision had been made by
          the commencement of the
          reporting period                                             5                      11            $ 99,836

B.        Which were issued during the
          reporting period                                            10                      14            $443,786

          TOTALS (A+B)                                                15                      25            $543,622

C.        For which a management decision
          was made during the reporting
          period                                                       9                      10            $135,626


          (i)     dollar value of recommenda-
                  tions that were agreed to by
                  management:                                         7*                      10*           $135,655

          (ii)    dollar value of recommenda-
                  tions that were not agreed to
                  by management                                       2*                       1*           $       10

D.        For which no management decision
          had been made by the end of the
          reporting period                                             8                      15            $407,996**

In addition to the decision amount identified above (C), MARAD returned an additional $438 million to the
Treasury beyond the $585 million agreed to in OIG report AD-MA-5-006 issued August 1, 1995.
Lines C (i) and C (ii) will not add up to Line C because of a $38,273 agreement above the reported amount and a $9,500 agree-
ment below the reported amount.

     *May include reports and recommendations in which some costs were allowed and others were disallowed.

     **The dollar amount agreed to by management does not include $349.4 million which was also agreed to by management but
     for which target dates for completion have not yet been provided. Without target completion dates, we cannot score this
     amount as agreed-to by management.
                 Audit Reports Recommending Changes
                   for Safety, Economy or Efficiency

                                                      Number of      Number of
                                                       Reports    Recommendations
A.   For which no management decision had been made
     by the commencement of the reporting period         25             86



B.   Which were issued during the reporting period       33             106

     TOTALS: (A + B)                                     58             192



C.   For which a management decision was made
     during the reporting period                         32             117



D.   For which no management decision has been made
     by the end of the reporting period                  26             75




                                             38
                  Status of Unresolved Audit Recommendations

                               Over 6 Months Old

           CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1993-MARCH 31, 1994

FAA-Monitoring of Airport Revenues at      R9-FA-4-001        10/18/93   Referred to the Departmental
Phoenix Sky Harbor International Airport                                 Resolution Official in June 1994.



          CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1995-SEPTEMBER 30, 1995

FTA-Useful Life of Rail Cars, Washington   R4-FT-5-091        06/27/95   Referred to the Departmental
Metropolitan Area Transit Authority                                      Resolution Official in August 1996.
                                                                         Legal decision pending.

           CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1995-MARCH 31, 1996

FAA-Controls over Access to Aircraft       AS-FA-6-004        02/20/96   Referred to the Departmental
for Free Transportation                                                  Resolution Official in August 1996.
FAA-Voluntary Separation                   R6-FA-6-009        02/09/96   Awaiting FAAs investigation and U. S.
Incentive Payments                                                       Attorney action.
FAA-Monitoring Accountability and          R9-FA-6-001        10/30/95   Referred to the Departmental
Use of Airport Revenues Los Angeles                                      Resolution Official in August 1996.



          CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1996-SEPTEMBER 30, 1996

FAA-Airport Improvement Program            R9-FA-6-015        09/20/96   Working with FAA to resolve
Grants Provided to Hawaii DOT                                            all open issues.



          CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1997-SEPTEMBER 30, 1997

FAA-State of Hawaii, Department            Y4-FA-7-040        04/24/97   Resolution will be completed
of Transportation, Airports Division                                     during the second quarter FY 1999.


           CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1997-MARCH 31, 1998

FAA-Air Traffic Control Modernization      AV-1998-089        03/27/98   Resolution will be completed
                                                                         during the second quarter FY 1999.
FAA-The Year 2000 Computer Challenges      FE-1998-068        02/23/98   Resolution will be completed
                                                                         during the first quarter FY 1999.
FAA-Management Advisory,                   FE-1998-027        11/26/97   Resolution will be completed
Year-2000 Problem                                                        during the first quarter FY 1999.
USCG-Management Advisory,                  FE-1998-002        10/14/97   Resolution will be completed
Projects Funded with Operating Expenses                                  during the second quarter FY 1999.

                                                         39
                              Profile of Pending Investigations
          DOT Operating                      Number of                            Types of Cases
          Administration                       Cases            Contracts Employees Grants           Other*
Federal Aviation
Administration                                   164                22            38            7     97

Federal Highway
Administration                                   137                12             3           26     96

Federal Railroad Administration                    4                  0            1            0       3

Federal Transit Administration                    26                  6            0           12       8

Maritime Administration                            6                  3            1            0       2

National Highway Traffic
Safety Administration                              3                  0            0            0       3

Office of the Secretary                            6                  2            0            0       4

Research and Special Programs
Administration                                    18                  1            2            2     13

Saint Lawrence Seaway
Development Corp.                                  0                  0            0            0       0

Surface Transportation Board                       1                  0            1            0       0

U.S. Coast Guard                                  28                10             9            0       9
      TOTALS:                                    393                56            55           47     235

        Percent of total:                       100                 14            14           12      60


*Includes companies and individuals making false statements to officials of Departmental programs.




                                                       40
                    Investigations
                                                              OIG investigations in this
                   Judicial Actions
                                                              reporting period spurred
          April 1, 1998-September 30, 1998                    $12,251,155 in recoveries
                 Indictments 59                               including fines, restitution,
                 Convictions 78                               civil judgments or settle-
             Years Sentenced 73                               ments, and Federal and
             Years Probation 106                              State recoveries. Federal
                        Fines $ 4,036,100                     recoveries go to the U.S.
Restitutions/Civil Judgments $ 4,327,386                      Treasury. State recoveries
            Federal Recovery $ 3,684,789                      are retained by the states.
              State Recovery $ 202,880

                     TOTAL $12,251,155



 The 6 months covered by this
                                                       Investigations
 report opened with a pending
                                                 Administrative Actions
 caseload of 365. During the
 period, 91 cases were opened                April 1, 1998-September 30, 1998
 and 63 were closed, leaving a                         Employee Suspensions     1
 pending caseload of 393. Our                Employee Reassignment/Transfer     4
 investigators made a concert-               Employee Resignation/Retirement    1
 ed effort during the period to                         Employee Terminated     2
 clear backlogs.                                        Employee Restitution    1
                                                        Employee Reprimand      6
                                                         Employee Counseled     11
                                                    Debarments/Suspensions      3
           During the period, 142                       Redelivery of Product   1
           cases were accepted for                          Price Adjustment    4
           prosecution, while 18
                                                            Corrective Action   15
           were declined.     The
                                                    New Procedure Instituted    3
           number of cases pend-
           ing before prosecutive                                Other Action   9
           authorities    as    of                      Restatement of Policy   1
           September 30, 1998 was                  Payment Method Modified      1
           105.                                     Referred to Third Agency    3
                                                                      TOTAL     66


                                            41
Application of Audit Resources
by Operating Administration
                                               FRA
                                               8%
     FAA
     47%
                                                          SECRE-
                                                          TARYS
                                                          OFFICE
                                                           13%




                                                           FTA
                                                           10%



             FHWA                            MARITIME
              9%                 COAST      ADMINISTRA-
                                 GUARD         TION
                                  11%           2%




   Application of Investigative Resources
   by Operating Administration

                       COAST
                      GUARD--     MARAD
           RSPA--                               FHWA--
                        5%         2%
            5%                                   39%
   FTA--
    6%


 OST--
  8%




            FAA--
             35%




                                  42
                       Office of Inspector General

                               Audit Reports

                     April 1, 1998-September 30, 1998


                                 FEDERAL AVIATION ADMINISTRATION

INTERNAL AUDITS - 20 Reports
                                                                                       FOCUS OF FINDINGS/
REPORT          DATE    SUBJECT                                                        RECOMMENDATIONS:
AV-1998-214    09/30/98 FAA Personnel Reform
                                          Management improvement
FE-1998-209    09/29/98 FAA Inventory of Field Spare Parts 
                           $120,000,000 better use
AV-1998-207    09/28/98 FAA Actions Taken to Address the Office
                       Management improvement
                        of Government Ethics Recomnmendations
AV-1998-201   09/11/98 FAA Airport Financial Reports                                   $3,339,000 better use
FE-1998-202   09/10/98 FAA Valuation of Logistics Center Inventory                     More accurate basis for user fees
AV-1998-196   09/01/98 FAA Report on Imperial County                                   $4,686 questioned
                        Airport Hotline Complaint                                      $553,600 better use
                                                                                       $216,716 unsupported
AV-1998-189   08/10/98   FAA Wide-Area Augmentation System                             Modernize National Airspace
FE-1998-186   08/10/98   FAA Report on Implementation                                  Management improvement
                         of Cost-Accounting System
AV-1998-170   08/03/98   FAA Liaison and Familiarization Training                      Eliminate ethical problems
AV-1998-178   07/23/98   FAA Dangerous Goods/Cargo Security Program                    Improve safety
AV-1998-171   07/16/98   FAA Deviations and Exemptions to Safety-Related Regulations   Improve Safety
AV-1998-169   07/09/98   FAA STARS Main Display Monitors                               Modernize National Airspace
FE-1998-167   07/06/98   FAA Control of Appropriations                                 $10,700,000 better use
AV-1998-149   06/02/98   FAA Final Report on Review of Security Controls               Improve safety
                         Over Air Courier Shipments
AV-1998-147   05/18/98   FAA Federal Contract Tower Program                            $2,400,000 questioned
FE-1998-136   05/15/98   FAA Replenishing Logistics Center Inventory                   Improve accountability
AV-1998-117   05/13/98   FAA Wide Area Augmentation System                             Modernize National Airspace
FE-1998-132   05/07/98   FAA Formal Reprogramming of Facilities and                    Improve accountability
                         Equipment Appropriation
AV-1998-120   04/17/98   FAA Administration of Security Guard Contracts                Improve safety
AV-1998-113   04/15/98   FAA Advanced Automation System                                None



GRANT AUDIT - POST-AWARD - 17 Reports



QC-1998-203   09/10/98   Quality Control Review, City of Atlanta, Georgia              Better grantee oversight
QC-1998-181   07/24/98   Department of Airports, City of Los Angeles, CA               Better grantee oversight


                                                          43
QC-1998-172   07/14/98   Niagara Frontier Transportation Authority                      Better grantee oversight
                         Buffalo, NY
QC-1998-163   06/23/98   Quality control review of the Single Audit of the              Better grantee oversight
                         City of Phoenix, AZ
QC-1998-161   06/18/98   Westchester County, White Plains, NY                           Better grantee oversight
QC-1998-152   06/10/98   Puerto Rico Ports Authority, San Juan, PR                      Better grantee oversight
QC-1998-141   05/14/98   City of Houston, TX                                            Better grantee oversight
QC-1998-133   05/11/98   Metropolitan Washington Airports Authority,                    Better grantee oversight
                         Alexandria, VA
QC-1998-144   05/08/98   Clark County Department of Aviation                            Better grantee oversight
                         Las Vegas, NV
QC-1998-127   04/30/98   Spokane Airport, Washington State                              Better grantee oversight
QC-1998-122   04/22/98   Indianapolis Airport Authority                                 Better grantee oversight
QC-1998-121   04/22/98   Puerto Rico Airports Authority                                 Better grantee oversight
QC-1998-116   04/15/98   Westchester County, White Plains, NY                           Better grantee oversight



OTHER -   4 Reports



AV-1998-195   08/28/98   FAA Advisory Report on Coolidge Municipal                      $2,368 questioned
                         Airport Hotline Complaint, Los Angeles, CA
AV-1998-187   08/25/98   Observations on FAAs Year-2000 Computer                       Continuity of operations
                         Problem and Computer Security
AV-1998-177   07/17/98   FAA Aviation Industry Notification Regarding                   Improve safety
                         Testing Specifications for Threaded Fasteners and Components
AV-1998-134   05/27/98   FAA Aviation Security                                          Improve safety




                                 FEDERAL HIGHWAY ADMINISTRATION


INTERNAL AUDITS - 3 Reports

                                                                                        FOCUS OF FINDINGS/
REPORT          DATE          SUBJECT                                                   RECOMMENDATIONS:
TR-1998-212   09/30/98   Cypress Freeway Project
                                       $14,000,000 better use
TR-1998-191   08/12/98   FHWA Review of Emergency Relief
                               $6,700,000 better use
TR-1998-109   04/03/98   FHWA Report on the Central Artery/
                            Better control of costs
                         Ted Williams Tunnel Project, Boston MA
,



GRANT AUDIT - POST-AWARD - 9 Reports



QC-1998-193   08/24/98   District of Columbia Department of Public Works
               Better grantee oversight
QC-1998-184   07/27/98   State of Florida 
                                             $26,978 questioned
QC-1998-182   07/24/98   Arkansas State Highway and Transportation Department 
         Better grantee oversight
QC-1998-153   06/10/98   Department of Transportation/Highways Division
                Better grantee oversight
                         State of Hawaii

                                                           44
QC-1998-142   05/14/98    Michigan Department of Transportation              $19,093 questioned
QC-1998-140   05/14/98    Commonwealth of Massachusetts                      Better grantee oversight
QC-1998-129   04/30/98    State of North Carolina                            Better grantee oversignt
QC-1998-115   04/15/98    District of Columbia Department of Public Works    Better grantee oversight
QC-1998-114   04/10/98    City of Baltimore, MD                              Better grantee oversight




                                 FEDERAL RAILROAD ADMINISTRATION


INTERNAL AUDITS - 1 Report

                                                                             FOCUS OF FINDINGS/
REPORT          DATE           SUBJECT                                       RECOMMENDATIONS:
TR-1998-210   09/30/98     Safety Assurance and Compliance Program           Improve safety




                                        MARITIME ADMINISTRATION


INTERNAL AUDITS - 1 Report

                                                                            FOCUS OF FINDINGS/
REPORT        DATE        SUBJECT                                           RECOMMENDATIONS:

MA-1998-156   06/12/98    Maritime Security Program                         Management improvement




GRANT AUDIT - POST-AWARD - 5 Reports

MA-1998-197   09/01/98	   Memorandum on Sea-Land Service Inc.                $19,329 better use
                          Construction-Differential Subsidy Repayments
MA-1998-168   07/08/98	   Waterman Steamship Corporation                     $6,563 questioned
                          Subsidizable Costs, New Orleans, LA
MA-1998-150   05/26/98	   Farrell Lines Subsidizable Costs                   $139,633 questioned
                          New York, NY
MA-1998-119   04/16/98	   OMI Corporation Maintenance and Repair Costs       $24,665 questioned
                          New York, NY
MA-1998-107   04/02/98	   Subsidy Cost Determination, Lykes Bros.            None
                          Steamship Company, New Orleans, LA




                                                         45
CONTRACT AUDITS - 4 Reports

                                                                                     FOCUS OF FINDINGS/
REPORT        DATE        SUBJECT                                                    RECOMMENDATIONS:

MA-1998-206   09/17/98	   Bay Tankers Inc., Englecliffs, NJ                          $160,871 questioned
                          National Shipping Authority Agreement, MARAD
MA-1998-159   06/16/98	   International Marine Carriers                              $26,951 questioned
                          National Shipping AuthorityAgreement, Mineola, NY
MA-1998-118   04/15/98	   Chestnut Shipping Company                                  Costs submitted accurately
                          Maintenance and Repair Costs, Bala Cynwyd, PA
MA-1998-108   04/02/98    International Marine Carriers                              $410,512 questioned
                          National Shipping Authority Agreement, Mineola, New York




                          OFFICE OF THE SECRETARY OF TRANSPORTATION


INTERNAL AUDITS - 2 Reports

                                                                                     FOCUS OF FINDINGS/
REPORT          DATE           SUBJECT                                               RECOMMENDATIONS:

FE-1998-164   06/30/98    Federal Agencies Centralized Trial-Balance                Improve financial management
                          System Data for Fiscal Year 1997
FE-1998-187   08/25/98    The Year 2000 Computer Program and                         Continuity of operations
                          Computer Security Challenges




OTHER - 4 Reports

                                                                                     FOCUS OF FINDINGS/
REPORT          DATE           SUBJECT                                               RECOMMENDATIONS:

MA-1998-179   07/21/98	   Testimony Before U.S. Senate:                              Improve controls
                          Awarding Discretionary Funds in DOT
TR-1998-162   06/22/98	   Financial Activities of Operation Respond                  Improve controls
                          Institutute, Inc. Washington, DC
MA-1998-155   06/12/98    Awarding Discretionary Funds in the                        $287,460,000 better use
                           U.S. Department of Transportation
MA-1998-106   04/01/98	   Trade Mission Travel, Office of the                        None
                          Secretary of Transportation




                                                           46
                                       UNITED STATES COAST GUARD


INTERNAL AUDITS - 6 Reports

                                                                                              FOCUS OF FINDINGS/
REPORT          DATE           SUBJECT                                                        RECOMMENDATIONS:

MA-1998-204   09/11/98    Security for Passenger Terminals                                    Improve safety
                          and Vessels
MA-1998-200   09/08/98    Container Inspection Program                                        Improve safety
MA-1998-158   06/16/98    Recovery of Medical Care Cost                                       Management improvement
FE-1998-151   06/02/98	   Actuarial Estimates for Retired Pay and                             Better financial records
                          Health Care Cost
MA-1998-148   05/26/98    Postgraduate Training Program                                       $33,800 better use
FE-1998-112   04/09/98    Family Housing Acquisition                                          $980,727 better use




                                   FEDERAL TRANSIT ADMINISTRATION

INTERNAL AUDITS - 3 Reports
                                                                                              FOCUS OF FINDINGS/
REPORT        DATE        SUBJECT                                                             RECOMMENDATIONS


TR-1998-213   09/30/98	   Completion of the Metrorail System,                                 Funds available for other work
                          Washington, DC
TR-1998-176   07/16/98	   Analysis of Los Angeles County Metropolitan                         Protect Federal investment
                          Transportation Authoritys Recovery Plan
TR-1998-154   06/12/98	   Megaproject Review of Los Angeles Metro Rail                        Protect Federal investment
                          Red Line Project



GRANT AUDIT - POSTAWARD - 31 Reports

                                                                                              FOCUS OF FINDINGS/
REPORT        DATE        SUBJECT                                                             RECOMMENDATIONS:
QC-1998-211   09/22/98    State of Hawaii DOT                                                 Better grantee oversight
QC-1998-205   09/14/98	   Quality Control Review, Greater Cleveland                           Better grantee oversight
                          Regional Transit Authority
QC-1998-194   08/24/98	   Southeastern Pennsylvania Transportation                            Better grantee oversight
                          Authority, Philadelphia
QC-1998-192   08/24/98    Utah Transit Authority, Salt Lake City                              Better grantee oversight
QC-1998-190   08/24/98    Broward County, FL                                                  Better grantee oversight
QC-1998-188   08/06/98	   Quality control review, Indianapolis, IN                            Better grantee oversight
                          Airport Authority
QC-1998-185   07/29/98	   Quality control review, Single Audit of Southeastern Pennsylvania   Better grantee oversight
                          Transportation Authority, Philadelphia

                                                          47
QC-1998-183   07/24/98     City of Roanoke, VA                                          Better grantee oversight
QC-1998-180   07/21/98     Palm Beach County, FL                                        Better grantee oversight
QC-1998-174   07/17/98     San Joaquin Regional Transit District                       Better grantee oversight
                           Stockton, CA
QC-1998-175   07/15/98     Quality control review, Price Waterhouse LLP Single Audit   Better grantee oversight
                           of Metropolitan Transit Authority, New York
QC-1998-173   07/14/98     City of Wichita, Kansas                                     Better grantee oversight
QC-1998-172   07/14/98     Niagara Frontier Transportation Authority                   Better grantee oversight
                           Buffalo, NY
QC-1998-166   06/30/98     Northeast Illinois Regional Commuter                        Better grantee oversight
                           Railroad Corp.
QC-1998-165   06/30/98     Regional Transportation District, Denver                    Better grantee oversight
QC-1998-160   06/17/98     QCR City of New York DOT Programs                           Better grantee oversight
QC-1998-157   06/15/98     Orange County Transportation Authority, CA                  Better grantee oversight
QC-1998-143   05/15/98     QCR of Single Audit of Port Authority of                    Better grantee oversight
                           Allegheny County, PA
QC-1998-139   05/14/98     San Joaquin Regional Transportation District, CA            Better grantee oversight
QC-1998-137   05/14/98     Port Authority of Allegheny County, PA                      Better grantee oversight
QC-1998-135   05/12/98     City of Chicago                                             Better grantee oversight
QC-1998-146   05/08/98     City of Phoenix, AZ                                         Better grantee oversight
QC-1998-145   05/08/98     Capital Metro Transportation Authority,                     Better grantee oversight
                           Austin, TX
QC-1998-131   05/06/98     The Greater Bridgeport Transit Authority, CT                Better grantee oversight
QC-1998-130   05/06/98     Hillsborough Transit Authority, FL                          Better grantee oversight
QC-1998-138   05/04/98     Lee County, FL                                              Better grantee oversight
QC-1998-128   04/30/98     Metropolitan Transportation Authority, NY                   Better grantee oversight
QC-1998-126   04/30/98     Massachusetts Bay Transportation Authority                  Better grantee oversight
QC-1998-125   04/30/98     Dallas Area Rapid Transit, TX                               Better grantee oversight
QC-1998-124   04/30/98     King County, WA                                             Better grantee oversight
QC-1998-123   04/22/98     Washington Metropolitan Area                                Better grantee oversight
                           Transit Authority




                    RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION

OTHER - 1 Report
                                                                                        FOCUS OF FINDINGS/
REPORT         DATE             SUBJECT                                                 RECOMMENDATIONS:

TR-1998-110    04/03/98	        Management Advisory on Hazardous                        Increased Federal revenue
                                Materials Registration Program




                                                          48
                                                     Contacts
Inspector General Kenneth M. Mead             (202) 366-1959

Deputy Inspector General
    Raymond J. DeCarli                        (202) 366-1959

Assistant Inspector General for Auditing
      Lawrence H. Weintrob                    (202) 366-1992

Assistant Inspector General for Investigations
      Todd J. Zinser                           (202) 366-1967

Office of Legal Counsel
      Roger Williams                          (202) 366-8751
      Brian Dettelbach                        (202) 493-0211

Communications
   Jeff Nelligan                              (202) 366-6312

Deputy Assistant Inspector General/Aviation
    Alexis Stefani                          (202) 366-0500

Deputy Assistant Inspector General/Financial,
 Economic, and Information Technology
     John L. Meche                          (202) 366-1496

Deputy Assistant Inspector General/Surface Transportation
    Patricia J. Thompson                    (202) 366-0687

Deputy Assistant Inspector General/Maritime
 and Departmental Programs
    Tom Howard                             (202) 366-1534

Deputy Assistant Inspector General/Investigations
    Donald L. Wiseman                       (202) 366-0681
